               Department of the Interior
               Office of Inspector General




            Audit Report


             U.S. Fish and Wildlife Service
           Wildlife and Sport Fish Restoration
            Program Grants Awarded to the
                    State of Arkansas,
              Game and Fish Commission,
        From July 1, 2005, Through June 30, 2007




Report No.
R-GR-FWS-0012-2008                   August 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                   August 5, 2009

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Arkansas, Game and Fish Commission, From
           July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0012-2008)

        This report presents the results of our audit of costs incurred by the State of Arkansas
(State), Game and Fish Commission (Commission), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $45.3
million on 82 grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and
2007 (see Appendix 1). The audit also covered Commission compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. However, we questioned costs totaling $37,010 from charges to the
grants for ineligible, improperly allocated, or unsupported costs. We also found that the
Commission did not have adequate controls over real property and equipment.

      We provided a draft report to FWS for a response. We summarized the Commission and
FWS responses and provided our comments on the responses after the recommendations.
Appendix 3 lists the status of the recommendations.

        Please respond in writing to the findings and recommendations included in this report by
November 3, 2009. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Peter
Rich, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Commission:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $45.3 million on the 82 grants that were
open during SFYs ended 2006 and 2007 (see Appendix 1). We report only on those conditions
that existed during this audit period. We performed our audit at Commission headquarters in
Little Rock, AR, and visited four regional offices, six wildlife management areas, one fish
hatchery, one firing range, and one nature center (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendments of 1996 and
by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used hunting and fishing license revenues solely
       for administration of the Commission; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Commission operations.

Prior Audit Coverage
On May 20, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Arkansas, Game and Fish Commission,
from July 1, 2001, through June 30, 2003” (No.R-GR-FWS-0006-2004). We followed up on all
recommendations in the report and considered them to be resolved and implemented. None was
referred to the Department of the Interior, Office of the Assistant Secretary for Policy,
Management and Budget for tracking.

We also reviewed Arkansas’ Comprehensive Annual Financial Reports and the Single Audit
Reports for SFYs 2006 and 2007. None of the reports included findings for the State of
Arkansas Game and Fish Commission that related to the FWS Wildlife and Sport Fish
Restoration Program.




                                                3
                                    Results of Audit
Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $37,010.
We discuss the findings in more detail in the Findings and Recommendations Section.

       Questioned Costs. We questioned $37,010 in costs claimed on four grants. These costs
       were ineligible, improperly allocated, or unsupported charges to the grants.

       Unreconciled Real Property Records. We found discrepancies between the real
       property records for the Commission and FWS because they had not reconciled their
       respective records.

       Inadequate Equipment Management. The Commission’s field employees did not
       consistently attach property identification tags to equipment, as required by the
       Commission’s Equipment Inventory Procedures.

Findings and Recommendations
A.     Questioned Costs — $37,010

       The Commission claimed costs of $49,346 (federal share $37,010) under four grants that
       were ineligible, improperly allocated, or unsupported. Specifically, the Commission
       charged:

           •   $5,000 (federal share $3,750) to the Statewide Fisheries Management Grant
               (F-42-20) for repairs to a private road unassociated with the grant;

           •   $5,341 (federal share $4,006) to the Fish Culture and Stocking Grant
               (F-43-21) to build a privacy fence around a hatchery manager’s residence,
               although the grant’s objective was to increase fish populations;

           •   $17,175 (federal share $12,881) to the Fish and Wildlife Coordination Grant
               (FW-1-51) for all of its costs incurred under the State’s Single Audit, even though
               the audit covered both Program and non-Program grants; and

           •   $21,830 (federal share $16,373) to the Hunter Safety Grant (W-1-35) without
               maintaining a supporting invoice.




                                                 4
The Code of Federal Regulations (2 C.F.R. § 225, Appendix A, Subsections C.1.a, b, and
j) specifies that allowable costs must be necessary and reasonable, be allocable to the
award only if they provide a benefit to the grant, and be adequately supported.

These issues occurred because the Commission (1) did not follow its procedures to
ensure that expenditures are allowable under the grant agreement; (2) did not have a
method of equitably allocating costs that benefit more than one cost objective; and (3) did
not have a process to ensure that it maintains sufficient supporting documentation for
grant expenditures. As a result, we are questioning $37,010, the federal share of
ineligible, improperly allocated, and unsupported costs charged to the Program grants, as
shown in the table below.

                                                     Questioned Cost
        Grant              Nature of
       Number          Questioned Cost           Total       Federal Share
      F-42-20       Ineligible                   $5,000          $ 3,750
      F-43-21       Ineligible                    5,341            4,006
      FW-1-51       Improperly Allocated         17,175           12,881
      W-1-35        Unsupported                  21,830           16,373
      Total                                     $49,346         $37,010
                 Table - Questioned Costs Charged to Program Grants

Recommendations

We recommend that FWS require the Commission to:

1. resolve the $37,010 in questioned costs; and

2. follow its procedures to ensure that expenditures are necessary in accomplishing
   approved project purposes, develop a method to allocate portions of expenditures that
   benefit more than one cost objective, and develop a process to ensure that sufficient
   supporting documentation is maintained for grant expenditures.

Commission Response

The Commission acknowledged the error on Grant F-42-20. Since the Commission had
overshare on the grant, Commission officials agreed to submit a revised SF-269 if
deemed necessary by FWS.

The Commission believed the questioned costs on Grant F-43-21 was allowable.
However, Commission officials acknowledged that since there was significant overshare
on this grant, the Commission would submit a revised SF-269.

The Commission also believed the amount questioned on Grant FW-1-51 was allowable
and noted that the auditor’s sample included only Program grants. Additionally, the
Commission responded that the “statement that the ‘audit covered both Program grant

                                         5
and unrelated activities’ is unclear and the phrase ‘unrelated activities’ needs to be
clarified or struck from the report.”

Regarding the unsupported costs on Grant W-1-35, the Commission stated this particular
invoice has been misfiled. The Commission located the purchase order and determined
the cost was for 15,000 hunter education’s student manuals. The Commission had
provided copies of the purchase order, purchase order issue log, invoice register, and the
State warrant. Although the actual invoice is still misfiled, the supplemental information
indicates that the cost was eligible expenditure under the grant.

FWS Response

FWS concurred with the recommendation regarding the questioned costs on Grant F-42-
20 and stated that a revised SF-269 excluding these costs would be requested from the
Commission. This action would be noted in a pending Corrective Action Plan.

FWS acknowledged the recommendations regarding the questioned costs on Grants F-43-
21, FW-1-51, and W-1-35 and stated that they will be addressed in detail in the pending
Corrective Action Plan.

OIG Comments

We agree with the Commission’s proposed actions to exclude the questioned costs and
submit revised SF-269s for Grants F-42-20 and F-43-21.

Regarding the questioned Single Audit costs from Grant FW-1-51, we have not received
documentation to definitely show that the auditors only reviewed the Program grants.
However, we did clarify the sentence questioned by the Commission.

We acknowledge that the costs questioned on Grant W-1-35 appear to be eligible
expenses. However, the Commission was not able to provide this invoice, which is a key
document to fully support both the cost and type of goods received. Furthermore, this
cost was rather significant to the grant.

Based on both the Commission and FWS responses, additional information is needed in
the corrective action plan including:

   • the specific action(s) taken or planned to address the recommendations;

   • target completion dates;

   • titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Commission.



                                          6
B.   Unreconciled Real Property Records

     The Commission and FWS each maintain records on land purchased with Program
     grants; however, these two sets of records have not been reconciled. The Commission’s
     inventory of property acquired with Program grant funds and license revenues identified
     approximately 264,761 acres with an acquisition cost of approximately $19.8 million.
     Conversely, FWS’ land records show approximately 210,790 acres costing approximately
     $17.3 million.

     The C.F.R. (50 C.F.R. § 80.18) and the FWS Manual (522 FW 1.15) require each State to
     maintain accountability and control of all assets to assure that the assets are used for the
     purpose for which they were acquired throughout their useful life. Under 50 C.F.R. §
     80.4, these requirements are extended to assets acquired with license revenues.
     Furthermore, the FWS Director issued a letter in March 2007 requesting each State to
     maintain a real property management system that included a comprehensive inventory of
     lands and to ensure that this inventory is accurate and complete.

     Commission and FWS officials acknowledged that they had not reconciled their
     respective land inventories to determine their accuracy and completeness. In fact,
     Commission officials were not aware of the Director’s letter regarding the reconciliation.
     As a result, there is no assurance that Commission and FWS land inventory records
     accurately account for all lands acquired with Program grant funds or license revenues.

     Recommendation

     We recommend that FWS require the Commission to reconcile its real property records
     with FWS.

     Commission Response

     The Commission stated that it had not received a written request from FWS to reconcile
     its land records with FWS. The Commission also responded that the original sentence
     regarding the adequacy of its records was misleading. The Commission stated that its
     records show substantially more acres and dollars than FWS because the Commission has
     acquired lands with non-grant dollars and donations.

     FWS Response

     FWS concurred with the recommendation and stated it would work with the Commission
     to reconcile both sets of real property records. However, FWS did request removal of a
     sentence regarding the adequacy of the Commission’s land records because it did not
     agree with the wording.




                                              7
     OIG Comments

     Based on the Commission and FWS responses, we clarified our statement about the
     adequacy of the Commission’s land records. In response to the Commission’s statement
     regarding Commission records having more acreage and dollars, we specifically stated
     land acquired with grant funds and/or license revenue. We did not include land acquired
     through other means in our comparison.

     Based on both the Commission and FWS responses, additional information is needed in
     the corrective action plan including:

        • the specific action(s) taken or planned to address the recommendation;

        • target completion dates;

        • titles of officials responsible for implementing the actions taken or planned; and

        • verification that FWS headquarters officials reviewed and approved of actions
          taken or planned by the Commission.

C.   Inadequate Equipment Management

     Federal regulations require each State to have adequate controls to ensure it maintains
     accountability for its equipment. In order to test the Commission’s controls, we selected
     150 equipment items costing $784,691 from the Arkansas Administrative Statewide
     Information System. During our tests, we found that 22 pieces of equipment, costing
     $143,840, did not have property tags. Without such tags, the Commission cannot ensure
     that its equipment is used only for authorized purposes. This inadequate control also
     increases the risk that equipment could be lost or misplaced.

     In 43 C.F.R. § 12.72(b), States are required to maintain accurate equipment records and
     follow their own procedures. The Commission’s Equipment Inventory Procedures
     requires property number tags to be affixed to State equipment.

     This issue occurred because field employees did not follow the Commission’s policy to
     attach property identification tags to equipment or did not paint or inscribe the number on
     the equipment in lieu of attaching the tags.

     Recommendation

     We recommend that FWS ensure that the Commission follows its procedures to tag all
     equipment.




                                              8
Commission Response

Commission officials understood that all items were accounted for and believed that the
untagged items were an atypical result. They acknowledged they would take steps to
address the issue statewide.

FWS Response

FWS concurred with the recommendation, stating that follow-up is in progress, and will
be explained in a pending Corrective Action Plan.

OIG Comments

Based on both the Commission and FWS responses, additional information is needed in
the corrective action plan including:

   • the specific action(s) taken or planned to address the recommendation;

   • target completion dates;

   • titles of officials responsible for implementing the actions taken or planned; and

   • verification that FWS headquarters officials reviewed and approved of actions
     taken or planned by the Commission.




                                        9
                                                                    Appendix 1
                                                                      Page 1 of 3

              ARKANSAS GAME AND FISH COMMISSION
            FINANCIAL SUMMARY OF REVIEW COVERAGE
               JULY 1, 2005, THROUGH JUNE 30, 2007

    GRANT   GRANT       CLAIMED           QUESTIONED COSTS (FEDERAL SHARE)
   NUMBER   AMOUNT       COSTS       UNALLOWABLE     UNSUPPORTED      TOTAL
F-42-20      $871,200   $1,006,676        $3,750                       $3,750
F-42-21       815,000      840,221
F-42-22       815,000      267,964
F-43-20     2,877,500    4,010,681
F-43-21     3,400,000    3,879,953         4,006                        4,006
F-43-22     3,333,000      620,849
F-62-13       800,000      831,394
F-62-14       800,000      830,974
F-62-15       800,000      499,082
F-65-7      1,356,000    1,510,721
F-65-8        820,710      628,668
F-66-6        800,000      862,957
F-66-7        810,668      866,081
F-69-2         66,668       53,344
F-75-1        330,080      594,082
F-76-3        397,000      470,367
F-76-4        340,000      358,460
F-77-3        136,533      152,981
F-78-3        145,013      145,012
F-79-1         73,000       73,109
F-80-1      1,500,000    1,500,000
F-82-1        100,000      100,999
F-83-1         80,000       96,264
F-84-1         72,500       74,045
F-85-1        551,999      385,514
F-86-B-1       74,650       56,115
F-89-B-2      104,000       85,148
F-90-1        104,615      128,609
F-91-B-1      120,000      120,185
F-92-1        442,000      574,398
F-93-B-1      102,167      146,252
F-104-1       100,000      117,508
F-105-2        16,000       16,000




                                     10
                                                                    Appendix 1
                                                                      Page 2 of 3

                ARKANSAS GAME AND FISH COMMISSION
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                 JULY 1, 2005, THROUGH JUNE 30, 2007

   GRANT      GRANT       CLAIMED          QUESTIONED COSTS (FEDERAL SHARE)
   NUMBER     AMOUNT       COSTS      UNALLOWABLE     UNSUPPORTED     TOTAL
F-105-3         $16,000     $21,782
F-106P-2        105,000     407,793
F-106P-3        100,000     315,412
F-107-D-1       454,000     177,895
F-108-M-1        35,000      29,341
F-109-D-1        67,000      67,000
F-110-D-1        44,000      77,973
F-111-B-1        94,200      86,770
F-112-R-1        40,000      35,000
F-113-DEO-1     100,000      24,972
F-114-B-1       179,500       1,951
F-115-D-1        80,000          98
F-116-B-1       107,025          02
F-117-D-1        35,000          02
F-118-DB-1       52,000          02
F-119-DB-1       17,000          02
F-120-DB-1       81,000          02
F-121-DB-1       73,000          02
FW-1-49         178,400     197,977
FW-1-50         178,400     178,469
FW-1-51         181,333     131,668        $12,881                    $12,881
FW-6-31         250,666     330,076
FW-6-32         262,667     345,047
FW-6-33         264,667     196,360
FW-7-1           80,000      82,805
FW-8-D-1        236,000     220,041
W-1-34          515,410     620,021
W-1-35          450,828     715,368                      $16,373       16,373
W-1-36          400,000     400,000
W-63-L-3         33,000      40,851
W-64-36       3,750,000   4,691,915
W-64-37       4,750,000   6,993,779




                                      11
                                                                                                 Appendix 1
                                                                                                     Page 3 of 3

                          ARKANSAS GAME AND FISH COMMISSION
                        FINANCIAL SUMMARY OF REVIEW COVERAGE
                           JULY 1, 2005, THROUGH JUNE 30, 2007

      GRANT              GRANT            CLAIMED             QUESTIONED COSTS (FEDERAL SHARE)
      NUMBER            AMOUNT             COSTS            UNALLOWABLE        UNSUPPORTED           TOTAL
    W-64-38            $4,818,000         $3,230,748
    W-69-30                90,000             91,293
    W-69-31                90,000            102,786
    W-69-32                90,667             72,515
    W-84-1                 52,496             46,164
    W-84-2                 67,976             54,663
    W-88-2                384,000            361,884
    W-89-2                575,000            569,252
    W-89-3                757,300            543,655
    W-92-E-1               38,691             12,348
    W-93-R-1              197,000            197,018
    W-94-M-1               38,000             42,726
    W-95-R-1              300,000            297,075
    W-96-M-1              260,650            268,911
    W-97-M-1            1,237,500            713,344
    W-98-L-1              341,950            374,299
    W-99-E-1              106,666                 02
    TOTAL             $45,812,295        $45,273,658          $20,637              $16,373           $37,010

                                                        2




2
  These grants were open during the time of our review, but the Commission had not claimed any costs for them at
the time of our review.

                                                       12
                                                    Appendix 2


 ARKANSAS GAME AND FISH COMMISSION
           SITES VISITED
                 Headquarters

                   Little Rock

                Regional Offices

                  East Central
                   Hot Springs
                  North Central
                    Northeast

          Wildlife Management Areas

          Dave Donaldson Black River
                   Gene Rush
                 Gulf Mountain
            McIlroy Madison County
            Sheffield Nelson Dagmar
          William Brewer / Scatter Creek

                   Other Sites

Dr. James E. Moore Jr. Camp Robinson Firing Range
Governor Mike Huckabee Delta Rivers Nature Center
      William H. Donham State Fish Hatchery




                       13
                                                                        Appendix 3


                  ARKANSAS GAME AND FISH COMMISSION
             STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


Recommendations            Status                   Action Required

A.1, A.2, B, and C   Resolved and         Additional information is needed in the
                     unimplemented        corrective action plan, including: the
                                          specific action(s) taken or planned to
                                          address the recommendations, targeted
                                          completion dates, titles of officials
                                          responsible for implementing the actions
                                          taken or planned; and verification that
                                          FWS headquarters officials reviewed and
                                          approved of actions taken or planned by
                                          the Division. We will refer
                                          recommendations not resolved and/or
                                          implemented at the end of 90 days (after
                                          November 3, 2009) to the Assistant
                                          Secretary for Policy, Management and
                                          Budget, for resolution and/or tracking of
                                          implementation.




                                     14
                                                 


                      Report Fraud, Waste, Abuse,  
                         and Mismanagement
                                                   
                            Fraud,
                                    waste and abuse in government
                            concern everyone: Office
                                                         of Inspector
                            General staff, Departmental employees,
                            and the general public. We actively
                            solicit allegations of any inefficient and
                            wasteful  practices, fraud, and abuse
                            related to Departmental or Insular Area
                           
                            programs and operations. You can
                                                                     
                            report allegations to  us in several ways.
                                                 
                                                     
                                                 
                                                 
                 By Mail:           U.S. Department of the Interior  
                                    Office of Inspector General  
                                    Mail Stop 4428 MIB  
                                    1849 C  Street, NW  
                                    Washington, D.C. 20240  
                   
                 By Phone :         24‐Hour Toll Free                    800‐ 424‐5081 
                                    Washington Metro Area                703‐ 487‐5435 
                   
                 By Fax:            703‐487‐5402
                   
                 By Internet:       www. doioig.gov/hotline
              
                                                                                           
